No. 20-1111
In The
Supreme Court of the United States
INTERNATIONAL ASSOCIATION OF BRIDGE, STRUCTURAL,
ORNAMENTAL AND REINFORCING IRON WORKERS, LOCAL 229, AFLCIO,
Petitioner,
v.
NATIONAL LABOR RELATIONS BOARD,
Respondent.
Petition for Writ of Certiorari
To the United States Court of Appeals
For the Ninth Circuit

CERTIFICATE OF SERVICE
Undersigned counsel for Petitioner International Association of Bridge,
Structural, Ornamental and Reinforcing Iron Workers, Local 229, AFL-CIO, a
member of the Bar of this Court, certifies that all parties required to be served have
been served with the Reply Brief, in compliance with Supreme Court Rule 29(3),
in that three copies were serviced on counsel of record for Respondent, this
day of April, 2021 by UPS overnight delivery, addressed as follows:

27th

Elizabeth Prelogar, Acting Solicitor
General
Counsel of Record
Solicitor General of the United States
Department of Justice
Room 5616
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001
(202) 514-2217
Email: SupremeCtBriefsgusdoj.gov

David Habenstreit
Elizabeth Ann Heaney
Greg P. Lauro
National Labor Relations Board
1015 Half Street SE
Washington, DC 20003
Email: david.habenstriet@nlrb.gov
Email: Elizabeth.heaney@nlrb.gov
Email: greg.lauro@nlrb.gov

I further certify that, pursuant to the Supreme Court 29.3,Ihave caused
electronic copies of the brief to be served on the parties at the email addresses
listed above.
I further certify that all persons required to be served have been served.

David A. Rosenfeld
Weinberg Roger & Rosenfeld
1375 55th Street
Emeryville, CA 94608
Tele: (510) 337-1001
Email: courtnotes@unioncounsel.net
Email: drosenfeld@unioncounsel.net
Counsel for Petitioner

150414\ 1164630

2

